GR-80-97-015
U.S. DEPARTMENT OF JUSTICE
 
 Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
AWARDED TO THE CITY OF ALEXANDER, ARKANSAS
Award No. 95-CF-WX-1773
GR-80-97-015
August 8, 1997
 

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of a grant
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the City of Alexander, Arkansas. The City received a
grant of $51,396 to hire or rehire one full-time additional police officer under the
Funding Accelerated for Smaller Towns (FAST) program. The purpose of the grant is to
enhance community policing efforts.
The City of Alexander did not properly manage the COPS grant. Specifically:


- The City's accounting system could not be relied upon to provide accurate and
    reliable operating and financial information.
- The City spent $23,694 (or 46 percent) of $51,396 costs expended in the grant for
    items that were not allowable and not in accordance with grant requirements.
- Only two of eight Financial Status Reports were submitted to the Office of Justice
    Programs (OJP) as required. Of the two reports submitted, neither correctly reported the
    costs charged to the grant, and one report was not submitted timely.
- The City should resubmit an updated community policing plan to the Office of COPS
    that reflects its most recent community policing priorities.

 
#####